Audit Report




OIG-13-022
Management Letter for the Audit of the Office of D.C. Pensions’
Fiscal Years 2012 and 2011 Financial Statements
December 10, 2012




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF                              December 10, 2012
INSPECTOR GENERAL




            MEMORANDUM FOR NANCY OSTROWSKI, DIRECTOR
                           OFFICE OF D.C. PENSIONS

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the
                                  Office of D.C. Pensions’ Fiscal Years 2012 and 2011
                                  Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Office of D.C. Pensions’ (ODCP) Fiscal Years 2012 and 2011 financial
            statements. Under a contract monitored by the Office of Inspector General, KPMG
            LLP, an independent certified public accounting firm, performed an audit of the
            financial statements of ODCP as of September 30, 2012 and 2011, and for the
            years then ended. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit
            Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting and its operation that was identified during the audit but was not required
            to be included in the auditors’ reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits,
            at (202) 927-5407.

            Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




December 7, 2012


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

In planning and performing our audit of the consolidated financial statements of the U.S. Department of the
Treasury’s Office of D.C. Pensions (the ODCP), as of and for the year ended September 30, 2012, in
accordance with auditing standards generally accepted in the United States of America, the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended, we considered the ODCP’s internal control
over financial reporting (internal control) as a basis for designing our auditing procedures for the purpose
of expressing our opinion on the consolidated financial statements but not for the purpose of expressing an
opinion on the effectiveness of the ODCP’s internal control. Accordingly, we do not express an opinion on
the effectiveness of the ODCP’s internal control.
During our audit, we noted a certain matter involving internal control and other operational matters that is
presented for your consideration. This finding and recommendation, which has been discussed with the
appropriate members of management, is intended to improve internal control or result in other operating
efficiencies and is summarized in Appendix A to this report.
In addition, we identified certain deficiencies in internal control over financial reporting that we consider
collectively to be a significant deficiency, and communicated them in writing as Exhibit I to the
Independent Auditors’ Report on Internal Control Over Financial Reporting to management and those
charged with governance on December 7, 2012.
Our audit procedures are designed primarily to enable us to form an opinion on the consolidated financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that may exist. We
aim, however, to use our knowledge of the ODCP’s organization gained during our work to make
comments and suggestions that we hope will be useful to you. The ODCP’s response to our finding and
recommendation is included in Appendix A. We did not audit the ODCP’s response and, accordingly, we
express no opinion on it. Appendix B presents the status of the prior year management letter comments.
We would be pleased to discuss this comment and recommendation with you at any time.
This communication is intended solely for the information and use of the ODCP’s management, the U.S.
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.
Very truly yours,




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                                              Appendix A
                                  U.S. Department of the Treasury
                                       Office of D.C. Pensions
                                FY 2012 Management Letter Comment



Strengthen the Process for Documenting Review of Audit Logs

During our review of the ODCP STAR audit log review control, we noted that the STAR_Daily_Checklist
was not completed for 51 days during the period October 1, 2011 through September 11, 2012, as the
primary STAR administrator was out on leave.

Office of DC Pensions System to Administer Retirement (STAR) System Security Plan states:

        “15.4.3.6 AU-6: Audit Monitoring, Analysis, and Reporting
        STAR administrators review the results from the audit logs daily. If need be, the administrator can
        modify the results to include more or less information.”

Bureau of the Public Debt, Office of Information Technology, Division of Technical Services, DC
Pensions Application and Technical Services Branch STAR Auditing and Logs (a reference document
which supports AU-6) states:

“DCP STAR Daily Checklist
      The system administrators (SA) will annotate the STAR_DAILY_Checklist.xls on a daily basis.
      The checklist will annotate at a minimum who performed the check the date and that the following
      checks were done by the SA for all the servers; Verify successful backup, percent of file system
      available, PS/Oracle processes, database archive, production transfer, virus definitions, HP-UX
      syslog file, Windows event logs. This checklist will be monitored by the System Manager on a
      Monthly basis. This process will be followed to ensure that audit records are reviewed in a timely
      manner for unauthorized activity”

ODCP’s inability to support their review of audit logs could potentially prohibit management from being
able to identify previous security incidents or inappropriate or unusual activity.

Recommendation

We recommend that ODCP establish a formal process to ensure STAR audit logs are monitored and
reviewed daily.

Management’s Response

STAR audit logs are monitored and reviewed daily with 24 hour monitoring from the Bureau of Fiscal
Services’ 24 hour operations center. The STAR Auditing and Logs document has been updated to reflect
the use of the 24 hour monitoring center




                                                   A-1
                                                                                      Appendix B

                              U.S. Department of the Treasury
                                   Office of D.C. Pensions
                      Status of Prior Year Management Letter Comments



    Prior Year                         Prior Year                              Status as of
    Deficiency                      Recommendation                          September 30, 2012

Improve              We recommend that ODCP:
                                                                          Closed
compliance with
Treasury Directive   1. Update the STAR Account Management Policy
Publication 85-01       and Procedures Manual to be in accordance
                        with the TD P 85-01; and

                     2. Implement a process to monitor compliance
                        with updated Treasury Directive Publications
                        and other Federal requirements on a more
                        frequent basis.

Improve Annuitant    We recommend that ODCP:
                                                                          Closed
Recordkeeping
                     1. Work with DCRB to ensure they are in
                        compliance     with     the    Recordkeeping
                        requirement as specified in MOU Concerning
                        Interim Benefit Administration of Retirement
                        Programs dated September 26, 2005, section
                        4.5; and

                     2. Take appropriate steps to inform DCRB
                        management of the importance of the
                        preservation, maintenance, and monitoring of
                        annuitant files at DCRB by requesting DCRB to
                        implement a file tracking system to include the
                        person with custody of annuitant files,
                        secondary review, file scanning and quality
                        review processes.




                                              B-1
